Final Audit Report No. AU01-003 (912000)
Home < Reports < Audit Reports    Legal Services Corporation Office of Inspector General
Review of Grantee's Use of Non-LSC Funds, Transfer of LSC Funds, & Program Integrity Standards
Grantee: Legal Aid Society of Hawaii
Recipient No. 912000
Report No. AU01-003
Other formats: PDF 114K | Word 40K | Grantee's Comments: PDF 35K
June 2001
TABLE OF CONTENTS
RESULTS OF AUDIT
RECOMMENDATIONS
SUMMARY OF GRANTEE'S COMMENTS ON DRAFT REPORT
BACKGROUND
OBJECTIVES, SCOPE and METHODOLOGY
APPENDIX I - Listing of Findings and Associated Recommendations
APPENDIX II  Grantee's Comments on Draft Report
APPENDIX III - OIG Staff Responsible for the Audit and Report
RESULTS OF AUDIT
The Legal Services Corporation (LSC) Office of Inspector General (OIG)
conducted this audit to determine whether Legal Aid Society of Hawaii (LASH) was in
compliance with the requirements of 45 CFR Part 1610.  Essentially, this regulation
prohibits grantees from transferring LSC funds to an organization that engages in
activities prohibited by or inconsistent with the LSC Act or applicable appropriations act
(hereinafter "restricted activities"), with one exception.  The only exception is that LSC
funds may be used to fund private attorney involvement (PAI) activities that an
organization or individual performs for the grantee.  In these instances the prohibitions
referred to in Part 1610 apply only to the LSC funds that were transferred to the
organization performing within the PAI program.  In addition, grantees must maintain
objective integrity and independence from organizations that engage in restricted
activities.
This audit provides reasonable, but not absolute, assurances that LASH
complied with Part 1610 between July 1, 1999 and March 31, 2001, the period covered
by our review.  In terms of Part 1610, the grantee was not involved with any
organizations that engaged in restricted activities.  LSC funds were not improperly
transferred to other organizations.
LASH used non-LSC funds to represent some clients that were not financially
eligible under LSC guidelines.  These cases involved clients that were serviced through
co-payment plans, reduced fee arrangements, and a prepaid legal services plan.  The
grantee's systems and procedures adequately tracked the costs of these cases and
ensured that LSC funds were not improperly used.
In addition, we reviewed the pleadings for several cases.  The cases were proper
and did not involve restricted and prohibited activities.  However, we identified a
relatively minor case reporting deficiency that is not directly related to program integrity.
Court Cases Not Reported To LSC
LASH did not report to LSC all the cases it filed in court as required by 45 CFR
Part 1644.  For calendar year 2000, LASH reported that 23 cases were filed in the 1st
Circuit Court of the State of Hawaii located in Honolulu.  The OIG identified eight
additional cases that were not reported.
Part 1644 of the regulations requires grantees to report to LSC and, on request,
disclose to the public certain information regarding each case it filed in a court.  This
requirement applies to all filed cases including those not funded by LSC.  The
information, including the name of each party to the case and the cause of action, must
be submitted to LSC in semiannual reports for the periods ended June 30th and
December 31st of each year.  Grantees are required to adopt written policies and
procedures to implement this regulation.
LASH has informal, unwritten procedures for meeting the reporting requirement.
The attorneys who file the cases are responsible for providing the case information to
the Deputy Director.  Following review, the information is recorded on a Semiannual
Case Disclosure form and reported to LSC.
These informal procedures were not followed for six of the eight unreported
cases and the required information was not recorded on the Semiannual Case
Disclosure form.  Management stated that some cases might have been overlooked
because multiple attorneys worked on the cases.  In these instances, each attorney
may have incorrectly thought that the other submitted information for the Case
Disclosure form.  Grantee management asserted that the other two cases were properly
excluded from the report because they were not funded by LSC.  However, Part 1644
requires grantees to report all cases filed by their attorneys, regardless of funding
source.  We noted that LASH reported other non-LSC funded cases in the Case
Disclosure form.
LASH should adopt formal written policies and procedures to ensure that it
complies with 45 CFR Part 1644.  The procedures should establish a systematic
process for the collection and reporting of case disclosure information.  The Executive
Director, or a designated management official, should review the Case Disclosure
Report prior to its submission to LSC.  In addition, LASH's full and part time attorneys
should be reminded of the case disclosure requirements and their reporting
responsibilities.
RECOMMENDATIONS
We recommend that LASH management:
Develop and implement formal, written policies and procedures to
implement the requirements of 45 CFR 1644.
Formally advise LASH attorneys of their responsibilities for reporting case
disclosure information.
SUMMARY OF GRANTEE'S COMMENTS ON DRAFT REPORT
The grantee agreed with the audit's findings and indicated that the OIG
recommendations will be implemented.  The grantee's comments are at
Appendix ll.
BACKGROUND
LASH is a nonprofit corporation established to provide legal services to indigent
individuals who meet eligibility guidelines.  Its priorities include housing, family, public
benefits and consumer issues.  The grantee is headquartered in Honolulu, Hawaii and
maintains eight branch offices throughout the state.  It is staffed with 25 attorneys, 16
paralegals, and 21 other employees, who assist case handlers and provide
administrative support services.  LASH received total funding of over $3.4 million during
their most recent fiscal year, which ended June 30, 2000.  LSC provided almost
$900,000 or about 26 percent of the total funds received by LASH during that year.
Grantees are prohibited from transferring LSC funds to another person or
organization that engages in restricted activities except when the transfer is for funding
PAI activities.  In these instances the prohibitions apply only to the LSC funds that were
transferred to the person or entity performing within the PAI program.  See 45 CFR Part
1610.  Grantees should also maintain objective integrity and independence from
organizations that engage in restricted activities.  This provision of Part 1610 applies to
grantees that transfer, or use non-LSC resources, including funds, for the benefit of the
other entity.
OBJECTIVES, SCOPE, AND METHODOLOGY
This audit assessed whether LASH was in compliance with guidelines
established in 45 CFR Part 1610 relating to the use of non-LSC funds, transfer of LSC
funds, and program integrity standards.
Our review covered July 1, 1999 through March 31, 2001.  The OIG began this
audit work in February 2001 and visited LASH in Honolulu, Hawaii between April 2 and
April 12, 2001.  At LSC headquarters in Washington, DC, we reviewed materials
pertaining to LASH including its Certification of Program Integrity, audited financial
statements, grant proposal, and recipient profile.  OIG staff discussed issues relating to
LASH with LSC management officials.
During the on-site visit, the OIG interviewed and collected information from the
Executive Director, Deputy Director, attorneys, paralegals, Comptroller, and other staff.
We ascertained whether LASH employees were generally knowledgeable regarding the
guidelines set forth in Part 1610.  The audit included an assessment of LASH policies
and procedures applicable to their use of non-LSC funds, transfer of LSC funds, and
program integrity requirements.
We gained an understanding of the client intake process utilized by LASH.
Pleadings from selected cases were reviewed to verify that the case activity was not a
restrictive or prohibited activity.
The OIG reviewed the grantee's financial accounts for vendors including
organizations, contractors, employees, and former employees.  We determined that 57
accounts had financial activity during the period covered by this audit.  The OIG
identified 14 of these accounts as having inherent risk of non-compliance because of
the identity of the vendor.  Individual transactions relating to each of those 14 accounts
were reviewed.  We selected an additional 28 accounts for examination and reviewed
transactions for each account.  In total we reviewed 42 (14+28) of the 57 accounts that
had financial activity during the period covered by this audit.  The aggregate value of the
transactions reviewed by the OIG was about $121,000.  Some accounts were reviewed
in their entirety.  Most accounts were judgmentally tested due to time constraints.
We assessed the process used by LASH to allocate direct and indirect costs to
LSC and non-LSC funds.  Policies and procedures relating to payroll and timekeeping
were evaluated.  Attorneys and paralegals at LASH were interviewed to determine their
understanding as to which fund they should charge their time relative to case handling.
All agreements between LASH and other organizations and individuals were
requested.  We reviewed all materials provided including grants, funding instruments,
leases, contracts, and co-counsel arrangements.  The OIG identified the grantee's
controls applicable to monitoring private attorneys under the PAI program.
We performed this audit in accordance with Government Auditing Standards
(1994 revision) established by the Comptroller General of the United States and under
authority of the Inspector General Act of 1978, as amended and Public Law 105-277,
incorporating by reference Public Law 104-134, §509(g).
APPENDIX I
LISTING OF FINDINGS AND ASSOCIATED RECOMMENDATIONS
Findings:
Case Disclosure Forms did not report all cases filed (page 2). Recommendations #1, 2
APPENDIX II
GRANTEES COMMENTS ON DRAFT REPORT
Download PDF file: 912000a2.pdf 35K.
APPENDIX III
OIG STAFF RESPONSIBLE FOR THE AUDIT AND THE REPORT
Michael Griffith (Auditor-in-charge)
Anthony M. Ramirez
David Young
Abel Ortunio
URL: http://oig.lsc.gov/reports/01003/912000.htm